   COMPLIANCE WITH STANDARDS GOVERNING
 COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
HOUSTON POLICE DEPARTMENT CRIME LABORATORY
              HOUSTON, TEXAS


            U.S. Department of Justice
          Office of the Inspector General
                   Audit Division


        Audit Report Number GR-60-10-009
                 September 2010
       COMPLIANCE WITH STANDARDS GOVERNING
     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
    HOUSTON POLICE DEPARTMENT CRIME LABORATORY
                   HOUSTON, TEXAS

                              EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Houston Police
Department Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and


       1
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1 percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.


                                               i
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

OIG Audit Objectives

      We conducted our audit from April 2008 to April 2010. The objectives
of our audit were to determine if: (1) the Houston Police Department Crime
Laboratory was in compliance with the NDIS participation requirements;
(2) the Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS.

       Our review determined the following:

       •   With regard to the Laboratory’s compliance with NDIS participation
           requirements, we found that the Laboratory did not have a policy to
           maintain personnel records for the 10 years required by the FBI’s
           NDIS operational procedures manual. 2 In response to this finding,
           the Laboratory revised its DNA Standard Operating Procedure
           manual to reflect the 10-year retention requirement. The
           Laboratory’s actions address our concern regarding this issue. The
           Laboratory was in compliance with the other NDIS participation
           requirements we reviewed.

       •   We reviewed the Laboratory’s compliance with the FBI’s Quality
           Assurance Standards. As part of our review, we provided the FBI
           with the list of the Houston Police Department’s analysts who
           conducted the most recent internal audit and auditors from outside
           laboratories who conducted the most recent external audit to
           determine if they had completed the required FBI DNA auditor
           training course prior to the audit. The FBI personnel informed us
           that the two auditors who performed the Houston Laboratory’s
           internal audit in October 2008 had not taken this required course.
           As a result, we recommend that the FBI ensure that the Laboratory
           implements procedures to verify that an FBI-trained DNA auditor is
           on the audit team for all audits required by the Quality Assurance
           Standards. We found that the Laboratory was in compliance with
           the remaining Quality Assurance Standards we reviewed.


       2
          The Houston Police Department refers to the files that contain analysts’ proficiency
testing results as quality files. However, for the purposes of this audit, personnel records
are defined as records for all approved CODIS users, including reports concerning
proficiency testing and any other report required by the FBI.


                                              ii
     •   We reviewed 100 DNA profiles in the Laboratory’s forensic CODIS
         database and determined that all but 3 were complete, accurate,
         and allowable for inclusion in NDIS. We found two profiles that
         were inaccurate and one that was unallowable for upload to NDIS.
         The Laboratory deleted the unallowable profile and corrected the
         two inaccurate profiles in NDIS. Therefore, we make no
         recommendations regarding this issue. The remaining 97 profiles
         reviewed were complete, accurate, and allowable for inclusion in
         NDIS.

      To address the Laboratory’s compliance with standards governing
CODIS activities, we recommended that the FBI ensure that the Laboratory
implements procedures to verify that an FBI-trained DNA auditor is on the
audit team for all QAS–required audits.

       Our audit objectives, scope, and methodology are detailed in Appendix
I of the report, and the audit criteria are detailed in Appendix II.




                                     iii
                               TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1
   Legal Foundation for CODIS ............................................................... 1
   CODIS Structure .............................................................................. 2
   Laboratory Information ..................................................................... 6

FINDINGS AND RECOMMENDATIONS................................................ 7
   I.    Compliance with NDIS Participation Requirements .......................... 7
   II.   Compliance with the Quality Assurance Standards ........................ 10
   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 13

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 15

APPENDIX II: AUDIT CRITERIA ..................................................... 18
   NDIS Participation Requirements ...................................................... 18
   Quality Assurance Standards ........................................................... 18
   Office of the Inspector General Standards ......................................... 20

APPENDIX III: FEDERAL BUREAU OF INVESTIGATION RESPONSE
              TO THE DRAFT REPORT ...........................................22

APPENDIX IV: HOUSTON POLICE DEPARTMENT RESPONSE
             TO THE DRAFT REPORT ............................................23

APPENDIX V: OFFICE OF THE INSPECTOR GENERAL, AUDIT
            DIVISION, ANALYSIS AND SUMMARY OF ACTIONS
            NECESSARY TO CLOSE THE REPORT ..........................25
       COMPLIANCE WITH STANDARDS GOVERNING
     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
    HOUSTON POLICE DEPARTMENT CRIME LABORATORY
                   HOUSTON, TEXAS

                                 INTRODUCTION


      The Department of Justice Office of the Inspector General Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Houston Police
Department Crime Laboratory (Laboratory).

       The Federal Bureau of Investigation’s (FBI) CODIS program provides
an investigative tool to federal, state, and local crime laboratories in the
United States using forensic science and computer technology. The CODIS
program allows laboratories to compare and match DNA profiles
electronically, thereby assisting law enforcement in solving crimes and
identifying missing or unidentified persons. 3 The FBI’s CODIS Unit manages
CODIS and is responsible for its use in fostering the exchange and
comparison of forensic DNA evidence.

       The objectives of our audit were to determine if the: (1) Laboratory
was in compliance with the National DNA Index System (NDIS) participation
requirements; (2) Laboratory was in compliance with the Quality Assurance
Standards (QAS) issued by the FBI; and (3) Laboratory’s forensic DNA
profiles in CODIS databases were complete, accurate, and allowable for
inclusion in NDIS. Appendix I contains a detailed description of our audit
objectives, scope, and methodology, while the criteria used to conduct our
audit are presented in Appendix II.

Legal Foundation for CODIS

      The FBI began the CODIS program as a pilot project in 1990. The
DNA Identification Act of 1994 (Act) authorized the FBI to establish a
national index of DNA profiles for law enforcement purposes. The Act, along



       3
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
with subsequent amendments, has been codified in a federal statute
(Statute) providing the legal authority to establish and maintain NDIS. 4

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS include only DNA information that is
based on analyses performed by or on behalf of a criminal justice agency —
or the U.S. Department of Defense — in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by participating states, (2) the
State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories within
the state and state offenders, and (3) the Local DNA Index System (LDIS) is
used by local laboratories. DNA profiles originate at the local level and then
flow upward to the state and, if allowable, national level. For example, the
local laboratory in the Palm Beach County, Florida, Sheriff’s Office sends its

      4
          42 U.S.C.A. § 14132 (2006).


                                        -2-
profiles to the state laboratory in Tallahassee, which then uploads the
profiles to NDIS. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS issues for all CODIS-participating
laboratories within the state. The graphic below presents an example of how
the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to electronically compare
DNA profiles on a national level. NDIS does not contain names or other PII
about the profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. Within NDIS are seven searchable indices
discussed below.

      •   Convicted Offender Index contains profiles generated from persons
          convicted of qualifying offenses. 5



      5
        The phrase “qualifying offenses” is used here to refer to local, state, or federal
 crimes that require a person to provide a DNA sample in accordance with applicable laws.


                                              -3-
      •   Arrestee Index is comprised of profiles developed from persons who
          have been arrested, indicted, or charged in an information with a
          crime.

      •   Legal Index consists of profiles that are produced from DNA
          samples collected from persons under other applicable legal
          authorities. 6

      •   Forensic Index profiles originate from, and are associated with,
          evidence found at crime scenes.

      •   Missing Person Index contains known DNA profiles of missing
          persons and deduced missing persons.

      •   Unidentified Human (Remains) Index holds profiles from
          unidentified living individuals and the remains of unidentified
          deceased individuals. 7

      •   Relatives of Missing Person Index is comprised of DNA profiles
          generated from the biological relatives of individuals reported
          missing.

      Although CODIS is comprised of multiple indices or databases, the two
main functions of the system are to: (1) generate investigative leads that
may help in solving crimes; and (2) identify missing and unidentified
persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

      In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. Those
persons may be identified through matches between indices in CODIS, such

      6
        An example of a Legal Index profile is one from a person found not guilty by
 reason of insanity who is required by the relevant state law to provide a DNA sample.

      7
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual who cannot or refuses to identify themselves.


                                          -4-
as through matches between the profiles in the Missing Persons Index and
the Unidentified Human (Remains) Index. Identifications may also be
generated through matches between the Unidentified Persons Index and the
Relatives of Missing Persons Index. The profiles within the Missing Persons
and Unidentified Human (Remains) Indices may also be vetted against the
Forensic, Convicted Offender, Arrestee, and Legal Indices to provide
investigators with leads in solving missing and unidentified persons cases.

State and Local DNA Index System

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       The utility of CODIS relies upon the completeness, accuracy, and
quantity of profiles that laboratories upload to the system. Incomplete
CODIS profiles are those for which the required number of core loci were not
tested or do not contain all of the DNA information that resulted from a DNA
analysis and may not be searched at NDIS. The probability of a false match
among DNA profiles is reduced as the completeness of a profile increases.
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative
comparisons, or lead to the misidentification of a sample. CODIS becomes
more useful as the quantity of DNA profiles in the system increases because
the potential for additional leads rises. However, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it



                                     -5-
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

        The Houston Police Department Crime Laboratory is a Local DNA Index
System laboratory. The Laboratory serves the Houston Police Department,
which covers a population of approximately 2 million. The Laboratory’s
initial access to CODIS began in 1998.

       According to the Director of the Houston Police Department Crime
Laboratory, the Houston Police Department’s Chief of Police requested
deactivation from CODIS in March 2003 due to concerns about the quality of
the analyses being performed. The Laboratory had serious problems ranging
from poor documentation to serious analytical and interpretive errors that
resulted in highly questionable results being reported by the Laboratory.
Subsequently, an independent investigation conducted by Michael Bromwich,
a former DOJ Inspector General, found that some of the weaknesses in the
Laboratory included the absence of a quality assurance program,
inadequately trained analysts, poor analytical technique, incorrect
interpretation of data, characterizing of results as inconclusive when that
was not the result, and the lack of meaningful and competent technical
reviews. 8 According to the Laboratory Director, this situation was remedied
by: (1) a comprehensive review and re-testing of previously tested DNA
cases; (2) replacement of staff conducting DNA testing, including the DNA
Technical Leader and Laboratory Director; and (3) the implementation of an
extensive quality assurance program that included training of remaining
staff.

      The Laboratory began analyzing forensic DNA samples again after
receiving accreditation from the American Society of Crime Laboratory
Directors/Laboratory Accreditation Board (ASCLD/LAB) in June 2006. The
Laboratory is due for reaccreditation in June 2012. The Laboratory began
uploading profiles into SDIS in February 2007. The Laboratory does not
process convicted offender samples and outsourced analysis of some
forensic DNA samples with the LabCorp, Orchid Cellmark, Sorenson, and
Strand Forensic laboratories.




      8
        Final Report of the Independent Investigator for the Houston Police Department
Crime Laboratory and Property Room, June 13, 2007, led by Michael Bromwich,
Independent Investigator.


                                          -6-
               FINDINGS AND RECOMMENDATIONS


      I. Compliance with NDIS Participation Requirements

      The OIG review examined the Houston Police Department Crime
      Laboratory’s compliance with NDIS participation requirements.
      Our review found that the Laboratory did not have a policy for
      the retention of its personnel records, including the DNA
      analysts’ proficiency tests, for the required 10 years. We also
      found that the Laboratory was in compliance with the 30-day
      timeframe for submission of the external audit to the NDIS
      Custodian, all Laboratory personnel had completed their annual
      training, and NDIS matches were confirmed in a timely manner.

      The NDIS participation requirements, which consist of the MOU and
NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are described in more detail in Appendix II of this
report.

Results of the OIG Review

       We noted one exception to the Laboratory’s compliance with the NDIS
participation requirements. Specifically, we found that the Laboratory did
not have a policy in place to maintain all necessary personnel records for the
required 10 years. The results of our audit are described in more detail
below.

Personnel Records

       The General Responsibilities Procedure states that the NDIS
Participating Laboratory has to maintain records of CODIS users, including
reports concerning proficiency testing and other records or audits required
by the FBI for 10 years. It is the Houston Laboratory’s policy to maintain
these records only until it receives reaccreditation, which is usually a 5-year
timeframe. However, the Houston Laboratory’s Quality Manager stated that
the Laboratory had not destroyed any personnel records since 2007 when
the Laboratory began participating in NDIS again. When we brought the
potential discrepancy to her attention, she immediately amended the


                                     -7-
Laboratory’s DNA Standard Operating Procedure manual to reflect the
required 10-year timeframe as outlined in the NDIS manual.

      We found that the Laboratory complied with other NDIS participation
requirements we reviewed, as described below.

  •   NDIS operational procedures require that CODIS be physically and
      electronically safeguarded from unauthorized use and only accessible
      to limited approved personnel. The Laboratory’s CODIS work station
      and server is housed in the DNA Laboratory and only personnel
      assigned to the DNA Laboratory have access to this space. All users
      have their own CODIS user account, and their screens lock after 10
      minutes of inactivity. The CODIS Administrator makes weekly backups
      and transfers them electronically to a secure off-site facility.

  •   NDIS operational procedures require that CODIS users are provided
      copies of NDIS procedures and understand and abide by them. We
      interviewed three of the Laboratory’s CODIS users and verified they
      knew where to find and access the procedures in the Laboratory.

  •   On an annual basis, CODIS users are required to successfully complete
      DNA Records Acceptance training annually. We verified with the FBI
      that all current CODIS users had completed the web-based training
      within the last year.

  •   The FBI requires the Laboratory submit documentation regarding
      CODIS users. We verified that the Laboratory submitted all required
      information for each CODIS user to the FBI.

  •   NDIS procedures describe a required match confirmation process when
      matches are identified in CODIS. We judgmentally selected a sample
      of 5 out of 46 NDIS matches and found the Laboratory to be timely in
      match confirmation requests, match confirmations, confirmation
      dispositions, and the notification to investigators of forensic matches.

  •   The NDIS operational procedure manual requires that external quality
      assurance audit reports be forwarded to the NDIS custodian within
      30 days of the Laboratory’s receipt of the report. We reviewed the
      submission of the most recent external audit and found that the report
      was submitted to the NDIS custodian in a timely manner.




                                    -8-
Conclusion

       The Laboratory’s policy manual did not require the maintenance of all
necessary personnel records for the required 10 years. When we brought
this issue to the attention of the Laboratory’s management, it made
corrections to address this issue. Therefore, we make no recommendations
concerning our review of NDIS participation requirements.




                                    -9-
      II. Compliance with the Quality Assurance Standards


      As a result of our review of the Laboratory’s compliance with the
      Quality Assurance Standards (QAS), we found that the
      Laboratory did not have an auditor on its internal audit team
      who had completed the required FBI DNA auditor training course
      prior to engaging in the audit. We did not identify any additional
      concerns with regard to the Laboratory’s compliance with the
      QAS for the remainder portions of our review.

     During our audit, we considered the Forensic QAS issued by the FBI. 9
These standards describe the quality assurance requirements that the
Laboratory must follow to ensure the quality and integrity of the data it
produces. The QAS we reviewed are described in more detail in Appendix II.

Results of the OIG Review

      We noted one exception to the Laboratory’s compliance with the
Forensic QAS. Specifically, we found that an internal auditor lacked FBI DNA
auditor training. The results of our audit are described in more detail below.

Internal Auditor’s Lack of FBI DNA Auditor Training

      According to the FBI’s QAS Audit Guide for DNA Testing Laboratories,
regardless of the type of audit (internal or external) it is the laboratory’s
responsibility to ensure that there is at least one person on the audit team
who is a qualified DNA auditor. The auditor on the audit team must have
completed the FBI’s required DNA training course. In order to determine if
the Laboratory was in compliance with the requirement, we sent the names
of the Houston Police Department’s analysts who conducted the most recent
internal audit to determine if they had completed the training prior to the
audit, which began in October 2008. FBI personnel informed us that the two
auditors who completed the Laboratory’s internal audit in October 2008 had
not completed the FBI DNA auditor training as of that date. As a result, we
recommend that the FBI ensure that the Laboratory implements procedures
to verify that an FBI-trained DNA auditor is on the audit team for all QAS-
required audits.




      9
         Forensic Quality Assurance Standards refers to the Quality Assurance Standards
for Forensic DNA Testing Laboratories, effective July 1, 2009.


                                         - 10 -
      We took no exception with the remaining areas of our review of the
Laboratory’s compliance with the QAS. The results for these remaining
areas are described below.

  •   The QAS requires that state laboratories undergo an annual audit,
      including an external audit every 2 years. We determined that the
      Laboratory complied with the requirement by undergoing an annual
      audit and alternating between an internal or an external audit each
      year.

  •   We obtained the most recent external and internal audit reports for
      the Laboratory. We determined that for both audits the FBI audit
      document was used and adequate corrective actions for audit findings
      were developed by the Laboratory. The internal audit report had one
      instance of noncompliance, and it was adequately corrected. The
      external audit report did not contain any findings.

  •   We verified that the entrances to the Laboratory were properly secured
      and controlled with an alarm system, employee scan cards, and a
      receptionist for the public entrance to prevent access by unauthorized
      personnel. Areas within the Laboratory were also adequately
      controlled with scan cards. Overall security at the Laboratory
      appeared to be adequate and in compliance with the QAS.

  •   The integrity of physical evidence samples is maintained by the
      Laboratory in accordance with the QAS. The chain of custody for
      evidence originates in the Property Room where all forensic samples
      are logged into the system. The Laboratory does not have the
      capability to electronically track forensic evidence so the Laboratory
      maintains a paper chain of custody for all forensic evidence within the
      pertinent case files. Evidence samples are properly stored from the
      point of receipt through processing. To ensure the accuracy of data
      loaded into the database, the Laboratory technically reviews all case
      files and completes checklists prior to uploading samples to CODIS.

  •   We interviewed the CODIS Administrator and reviewed policies and
      practices to determine that the Laboratory policies and practices
      regarding the separation of known and unknown samples during the
      analysis process appear to be adequate.

  •   We interviewed the CODIS Administrator and toured the Laboratory to
      determine that the Laboratory appeared to be in compliance with
      forensic standards governing the retention of samples and extracted
      DNA after analysis.


                                    - 11 -
  •   The Laboratory contracted out the analysis of forensic samples in the
      past 2 years. We verified that the subcontractors underwent QAS
      audits, the Laboratory reviewed the integrity of all samples received
      from vendors, and each contractor met the specific testing and
      reporting requirements detailed in their contracts. Therefore, we
      found that the Laboratory is in compliance with the QAS with respect
      to subcontractor monitoring.

  •   We determined that the Laboratory has adequate procedures to verify
      the integrity of contractor data. Specifically, the Laboratory performs
      in-house reviews of the data from the vendor laboratories for each
      sample analyzed. Based on our audit, we determined that the
      Laboratory’s actions help ensure the integrity of outsourced DNA
      analysis as required by the QAS.

  •   We reviewed documentation that the Laboratory has conducted on-site
      reviews of all four vendor laboratories used and were found to be
      sufficient to perform quality DNA analysis.

Conclusion

      Based on the review of Laboratory and sample security, the Houston
Police Department Laboratory was in compliance with the FBI’s QAS we
tested with one exception. We make one recommendation concerning our
review of the Quality Assurance Standards.

Recommendation

      We recommend that the FBI:

  1. Ensure that the Laboratory implements procedures to verify that an
     FBI-trained DNA auditor is on the audit team for all QAS–required
     audits.




                                    - 12 -
       III. Suitability of Forensic DNA Profiles in CODIS Databases


       We reviewed 100 DNA profiles in the Laboratory’s forensic
       CODIS database and determined that all but 3 were complete,
       accurate, and allowable for inclusion in NDIS. We found two
       profiles that were inaccurate and one that was unallowable for
       upload to NDIS.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 10 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results and that the values at each locus match those
identified during analysis. 11 Our standards are described in more detail in
Appendix II of this report.

       The NDIS operational procedures establish the DNA data acceptance
standards by which laboratories must abide. These procedures prohibit a
laboratory from uploading forensic profiles to NDIS that clearly match the
DNA profile of the victim or another known person, unless the known person
is a suspected perpetrator. The NDIS procedures we reviewed are described
in more detail in Appendix II of this report.

Results of the OIG Review

       We selected a random sample of 100 profiles out of the 740 forensic
profiles the Laboratory uploaded to NDIS as of March 25, 2010. Of the 100
forensic profiles sampled, we found 2 profiles that were inaccurate and 1
profile that was unallowable for upload to NDIS. The remaining 97 profiles
sampled were complete, accurate, and allowable for inclusion in NDIS. The
specific exceptions are explained in more detail below.

OIG Sample Number CA-05

      Sample number CA-05 was taken from a cutting of a cigarette butt.
The evidence was from a sexual assault case in which the crime had taken
place at the victim’s home. The sample was taken from outside of a garage
door of the victim’s home. Additionally, the victim stated the perpetrator did

       10
           When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample
is taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.

       11
            A “locus” is a specific location on a chromosome. The plural form of locus is loci.


                                             - 13 -
not smell like cigarette smoke. There was no indication that the evidence
could be attributable to the crime scene. We could not clearly conclude that
this was allowable for upload to NDIS; therefore, the CODIS Administrator
removed the profile from NDIS while we were still conducting fieldwork.

OIG Sample Numbers CA-19 and CA-35

       Sample numbers CA-19 and CA-35 were uploaded to NDIS with an
inaccurate value at locus D5 and TPOX, respectively. While we were
conducting fieldwork in the Laboratory, the CODIS Administrator found
errors in the forensic profiles when she was doing a review of the files. She
told us that these were typographical errors that were overlooked during the
first review. The CODIS Administrator removed the inaccurate forensic
profiles from NDIS and uploaded the corrected profiles while we were still
on-site. We were told that the Laboratory has since revised its procedures
to require three different levels of review to prevent errors from being
overlooked in the future.

Conclusion

       We found two profiles that had an incorrect value at a locus and one
profile that was unallowable for upload to NDIS. However, the CODIS
Administrator removed the inaccurate forensic profiles from NDIS and
uploaded the accurate profiles while we were still on-site. She also deleted
the unallowable profile from NDIS before we left the Laboratory. We make
no recommendations concerning our review of forensic DNA profiles.




                                    - 14 -
                                                                           APPENDIX I


             OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

       Our audit generally covered the period from April 2008 through
April 2010. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

   •   Examined internal and external Laboratory review reports and
       supporting documentation for corrective action taken, if any, to
       determine: (a) if the Laboratory complied with the QAS, (b) whether
       repeat findings were identified, and (c) whether recommendations were
       adequately resolved.12

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program; organization and management; personnel
       qualifications; facilities; evidence control; validation of methods and
       procedures; analytical procedures; calibration and maintenance of
       instruments and equipment; proficiency testing of analysts; corrective
       action for discrepancies and errors; and review of case files, reports,
       safety, and previous audits. The FBI’s NDIS operational procedures
       state that, after January 1, 2002, an external laboratory review is
       required to be performed by personnel who have successfully completed
       the FBI’s training course for conducting such reviews.


       12
            The QAS require that laboratories undergo annual audits. The QAS requires that
every other year the audit must be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                          - 15 -
                                                                             APPENDIX I


       As permitted by GAS 7.42 (2007 revision), we generally relied on the
       results of the Laboratory’s external laboratory reviews to determine if
       the Laboratory complied with the QAS. 13 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review, and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence and convicted offender DNA
       samples.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, and resolving
       matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation for 5 of 46 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of NDIS matches as of April 12, 2010.
       The sample was judgmentally selected to include both case-to-case and
       case-to-offender matches. This non-statistical sample does not allow
       projection of the test results to all matches.

   •   Reviewed supporting documentation to determine whether the
       Laboratory provided adequate vendor oversight.



       13
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.


                                           - 16 -
                                                                  APPENDIX I


  •   Reviewed the case files for selected forensic DNA profiles to determine if
      the profiles were developed in accordance with the Forensic QAS and
      were complete, accurate, and allowable for inclusion in NDIS.

  •   The NDIS Custodian, via the contractor used by the FBI to maintain
      NDIS and the CODIS software, provided a printout identifying the 740
      STR forensic profiles the Laboratory had uploaded to NDIS as of
      March 25, 2010. We limited our review to a sample of 100 profiles.
      This sample size was determined judgmentally because preliminary
      audit work determined that risk was not unacceptably high.

  •   Using the judgmentally determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     - 17 -
                                                                APPENDIX II

                             AUDIT CRITERIA


      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

   •   DNA Data Acceptance Standards
   •   DNA Data Accepted at NDIS
   •   Quality Assurance Standards (QAS) Audits
   •   NDIS DNA Autosearches
   •   Confirm an Interstate Candidate Match
   •   General Responsibilities
   •   Initiate and Maintain a Laboratory’s Participation in NDIS
   •   Security Requirements
   •   CODIS Users
   •   CODIS Administrator Responsibilities
   •   Access to, and Disclosure of, DNA Records and Samples
   •   Upload of DNA Records
   •   Expunge a DNA Record

Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender



                                     - 18 -
                                                                 APPENDIX II

QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS Standard 12.1): The laboratory shall have and follow
       written procedures for reviewing DNA records and DNA database
       information, including the resolution of database matches.

   •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
       laboratory shall be audited annually in accordance with [the QAS]. The
       annual audits shall occur every calendar year and shall be at least 6
       months and no more than 18 months apart.

       At least once every 2 years, an external audit shall be conducted by an
       audit team comprised of qualified auditors from a second agency(ies)



                                     - 19 -
                                                               APPENDIX II

      and having at least one team member who is or has been previously
      qualified in the laboratory’s current DNA technologies and platform.

  •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS Standard 17.4: An NDIS participating laboratory shall
      have, follow and document appropriate quality assurance procedures to
      verify the integrity of the data received from the vendor laboratory
      including, but not limited to, the following: random reanalysis of
      database, known or casework reference samples; inclusion of quality
      control samples; performance of an on-site visit by an NDIS
      participating laboratory or multi-laboratory system outsourcing DNA
      sample(s) to a vendor laboratory or accepting ownership of DNA data
      from a vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.

  •   Accuracy of DNA Profiles: The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard
      is that inaccurate profiles may: (1) preclude DNA profiles from being
      matched and, therefore, the potential to link convicted offenders to a
      crime or to link previously unrelated crimes to each other may be lost;
      or (2) result in a false match that would require the unnecessary use
      of laboratory resources to refute the match.

  •   Timely Notification of Law Enforcement When DNA Profile Matches
      Occur in NDIS: Laboratories should notify law enforcement personnel


                                   - 20 -
                                                         APPENDIX II

of NDIS matches within 2 weeks of the match confirmation date,
unless there are extenuating circumstances. Our rationale for this
standard is that untimely notification of law enforcement personnel
may result in the suspected perpetrator committing additional, and
possibly more egregious crimes, if the individual is not deceased or
already incarcerated for the commission of other crimes.




                              - 21 -
                                                                                        APPENDIX III
                                                         U.S. Department of Justice
                                                         Federal Bureau of Investigation

                                                         Washington, D. C. 20535-0001

                                                         July 26, 2010
Mr. David M. Sheeren
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
1120 Lincoln, Suite 1500
Denver, CO 80203
Dear Mr. Sheeren:

       Your memorandum to Director Mueller forwarding the draft report of the audit
conducted at the Houston Police Department Crime Laboratory, Houston, Texas (Laboratory) has
been referred to me for response.
       Your draft report contained one recommendation relating to the Laboratory's
compliance with the FBI's Memorandum of Understanding and Quality Assurance Standards for
Forensic DNA Testing Laboratories (QAS). As you noted in the draft report, compliance with the
QAS and Memorandum of Understanding is required for forensic laboratories participating in NDIS.
The CODIS Unit has reviewed your draft report and offers the following comments.

        With respect to recommendation one relating to the FBI ensuring that an FBI-trained
DNA auditor is on the audit team for all audits of the Laboratory, the FBI Quality Assurance Audit
Document currently addresses this matter. Standard 15.3 requires "a self-verification by the auditor(s) to
ensure that the auditor, or the auditing team, consists of appropriately qualified individuals. This
certification should be obtained and documented prior to the beginning of the audit and maintained by
the laboratory." Further, "[r]egardless of the audit (internal or external), it is the laboratory's
responsibility to ensure...that there is at least one person who is a qualified auditor on the audit team."
A qualified auditor is defined as "a current or previously qualified DNA analyst who has successfully
completed the FBI DNA Auditor's training course."

       The CODIS Unit has recognized that additional guidance was needed on the issue of
physical security of CODIS servers and revised its procedure to ensure appropriate physical security
for CODIS and NDIS. The physical security of the LDIS server is adequate provided that only
authorized personnel have physical access to the server. Authorized personnel are those who are
CODIS users in addition to other personnel approved by the Laboratory. If you require a copy of the
revised NDIS Procedure, please contact the CODIS Unit.
        Thank you for sharing the draft audit report with us. If you have any questions, please
feel free to contact Jennifer Luttman, Chief of the CODIS Unit, at (703) 632-8315.
                                                  Sincerely,
                                                  /s/
                                                  Alice R. Isenberg
                                                  Section Chief
                                                  Biometrics Analysis Section
                                                  FBI Laboratory

                                                - 22 -
                                                                                                         APPENDIX IV



                                                                     CITY OF HOUSTON
                                                                                               Houston Police Department
Annise D. Parker, Mayor                                                  1200 Travis Houston, Texas 77002-6000 713/308-1600

CITY COUNCIL MEMBERS: Brenda Stardig Jarvis Johnson Anne Clutterbuck Wanda Adams Michael Sullivan Al Hoang Oliver Pennington Edward Gonzalez
James G. Rodriguez Stephen C. Costello Sue Lovell Melissa Noriega C. O. "Brad" Bradford Jolanda "Jo" Jones CITY CONTROLLER: Ronald C. Green


         July 13, 2010                                                                           Charles A. McClelland, Jr.
                                                                                                      Chief of Police

         David M. Sheeren, Regional Audit Manager
         U.S. Department of Justice, Office of the Inspector General
         1120 Lincoln Street, Suite 1500
         Denver, Colorado 80203

         Dear Mr. Sheeren:

         We have reviewed the draft audit report on the Compliance with Standards Governing Combined
         DNA System Activities at the Houston Police Department Crime Laboratory attached to your
         correspondence dated June 25th, 2010.

         We would like to first inform you that we appreciated Xxxxxx Xxxxxxxxx and Xxxx
         Xxxxxxxxx professionalism and thoroughness during the audit process.

         The following are comments regarding the results of the review noted on the Executive
         Summary:

         OIG Result
         With regard to the Laboratory’s compliance with NDIS participation requirement, we found that
         the CODIS server was not properly secured. In response to this finding, the Laboratory installed
         a key lock and removed the wheels from a cabinet containing the server to make it less mobile.

         HPD Response/Clarification
         The CODIS server is located in the Forensic Biology Section on the 26th Floor of 1200 Travis.
         The server is maintained in an area dedicated to the use of forensic biology. Access to this area
         is controlled via electronic badge access in addition to keyed locks. Only authorized individuals
         have been granted access to this area. The network connected to the CODIS server is also
         separate from the remainder of the building.

         The CODIS server connects to a router located in the NIBIN work area of the Firearm Section on
         the 24th floor of 1200 Travis. This router connects the CODIS to a T1 line which is then routed
         out of the facility. The router is housed in a now-locked, non-portable cabinet. Like the CODIS




                                                                 - 23 -
                                                                       APPENDIX IV

server, this cabinet is also in a restricted area with access that is controlled by
electronic badge access in addition to keyed locks.

OIG Result
We also found that the Laboratory did not have a policy to maintain personnel
records for the required 10 years. In addition, the Laboratory revised its DNA
Standard Operating Procedure manual to reflect the 10-year retention policy.

HPD Response/Clarification
The Department’s policy is to retain “personnel” records permanently. The
records reviewed during the audit included quality system files such as
proficiency tests of staff. While the interim process will be to maintain the
quality files for 10 years, our long term plan is to merge these files with personnel
files for permanent storage.

General Comments:
Laboratory Information-Page 6 of OIG Report
“The Houston Police Department’s Chief of Police requested deactivation from
CODIS in March 2003 due to concerns about the quality of the analyses being
performed. This situation was remedied by a change in Laboratory personnel, and
the remaining staff underwent training.”

HPD Comment
The situation was remedied by not only the replacement of staff conducting DNA testing
but the replacement of the DNA Technical Leader and Lab Director. A comprehensive
review and re-testing of previously tested DNA cases was conducted. In addition to
implementing an extensive quality assurance program which included training of
remaining staff, an independent review was conducted of some of the Biology Section’s
work dating back to 1980.


If you have any questions, please contact me at 713-308-2636.



                                                       Sincerely,


                                                       /S/
                                                       Irma Rios, Director
                                                       Crime Lab Division
ir:ir




                                      - 24 -
                                                               APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the FBI and the
Houston Police Department’s Crime Laboratory. The FBI’s response is
incorporated in Appendix III of this final report, and the Houston Police
Department’s response is incorporated in Appendix IV. We made changes to
the report where appropriate, based on our follow up of information
contained in the responses.

Analysis of the Houston Police Department’s Response

      In response to our audit report, the Houston Police Department’s
Crime Laboratory concurred with our recommendation and discussed the
actions it will implement in response to our finding. Additionally, the
Houston Police Department provided clarification regarding the location of
the CODIS server. At the time of our audit, a laboratory representative
conducting a tour of the Crime Laboratory space, indicated that the CODIS
server was located in a controlled area two floors below the CODIS
laboratory. We relied on this representation in preparing our draft report.
However, based on the information provided in the Houston Police
Department’s response to the draft report and our follow up on the issue, we
have updated our final report to accurately reflect the location of the CODIS
server.

      The Houston Police Department’s response also provided additional
information regarding retention of all necessary personnel records. We have
added language in our report to clarify this issue.

Analysis of the FBI’s Response

      The FBI also concurred with our recommendation and provided
additional information regarding the physical security of the CODIS server.

  1. Resolved. The FBI concurred with our recommendation to ensure
     that the Houston Police Department’s Crime Laboratory implements
     procedures to verify that an FBI trained DNA auditor is on the audit
     team for all QAS-required audits. This recommendation can be closed
     when we receive a copy of the Laboratory’s procedure requiring it to
     verify that an FBI trained DNA auditor conducts all QAS–required
     audits.



                                   - 25 -
